APPENDIX

la
APPENDIX A — ORDER OF THE DISTRICT OF
COLUMBIA COURT OF APPEALS, FILED
NOVEMBER 12, 2020
DISTRICT OF COLUMBIA
COURT OF APPEALS
No. 20-OA-12
2019 CAB 8534
IN RE MICHAEL VARCO
BEFORE: Thompson and Beckwith, Associate Judges,
and Nebeker, Senior Judge.
ORDER
On consideration of petitioner’s lodged petition for writ
of mandamus filed pursuant to 18 U.S.C. § 3771(d)(3) and
the lodged opposition of Peter Newsham, and it appearing
that petitioner has failed to tender the filing fee, it is
ORDERED sua sponte that the Clerk shall file
the lodged petition for writ of mandamus and lodged
opposition. It is
FURTHER ORDERED that the petition for writ
of mandamus is denied. The trial court correctly denied
petitioner’s Motion to Enforce Crime Victim’s Rights
finding it lacked jurisdiction because the Crime Victims’
Rights Act, 18 U.S.C. § 3771, does not apply to Peter
Newsham as the Chief of Police for the District of Columbia.
Although the Act provides protections to victims of a crime

2a
Appendix A
in criminal cases prosecuted in the District of Columbia,
and there is no dispute that petitioner was a victim of an
assault, in this case no assailant has ever been identified.
The Act imposes obligations on judges to protect victim’s
rights once a criminal case has been filed; otherwise the
obligation falls to officers and agents of the Department
of Justice or employees of a federal agency. It is clear
that after the passage of the Home Rule Act, D.C. Code
§ 1-210, et seq., the District became an independent
municipal corporation vested with the authority of selfgovernment and interested in its own pecuniary interests
and was not a government agency. Further, the Home
Rule Act gives the authority to the Council to establish
the Metropolitan Police Department and gives the Mayor
the authority to appoint the Chief, making the Chief an
employee of the District, not of the federal government.
Therefore, the federal Crime Victims Act does not apply
to Newsham or MPD or provide petitioner a cause of
action against Peter Newsham. To the extent petitioner
is entitled to crime victim protection under the District’s
Crime Victims’ Bill of Rights statute, D.C. Code § 23-1901,
that statute does not provide petitioner with a private
right of action.
PER CURIAM

3a
APPENDIX B — ORDER OF THE SUPERIOR
COURT OF THE DISTRICT OF COLUMBIA, CIVIL
DIVISION—CIVIL ACTIONS BRANCH,
DATED SEPTEMBER 23, 2020
SUPERIOR COURT OF THE DISTRICT
OF COLUMBIA CIVIL DIVISIONCIVIL ACTIONS BRANCH
MICHAEL VARCO,
Plaintiff,
v.
PETER NEWSHAM,
Defendant.
Civil Case No. 2019 CA 008534 B
Civil II, Calendar I
Judge Kelly A. Higashi
ORDER DENYING PLAINTIFF’S MOTION TO
ENFORCE CRIME VICTIM’S RIGHTS
Plaintiff Michael Varco, pro se, brought this pending
matter to the Court seeking a declaratory judgment
that he is entitled to certain protections from the federal
Crime Victims’ Rights Act (“CVRA”) (18 U.S.C. §3771)
from Defendant Peter Newsham, acting in his official
capacity as Chief of the Metropolitan Police Department

4a
Appendix B
of the District of Columbia (“MPD”). The Court dismisses
Plaintiff’s case, styled as a Motion to Enforce Crime
Victim’s Rights (“Motion”), for lack of subject matter
jurisdiction because as an entity of the District of
Columbia government, MPD is not an “agenc[y] of the
United States” under 18 U.S.C. §3771(c)(l). The Court
also denies as moot Plaintiff’s other motions.
Plaintiff alleges that on July 31, 2016, he suffered
a physical attack that caused facial and jaw fractures.
Motion at 2. The MPD filed an incident report and
classified the attack as an alleged aggravated assault.
Id. Plaintiff alleges that the MPD failed, in a number of
ways, to either find those who attacked him or to protect
his privacy or personal information from the public. Id.
at 3-4. He seeks a number of remedies pursuant to the
CYRA .Id. at 18-25.
Plaintiff originally brought an action in the U.S.
District Court for the District of Columbia. In that
case, Judge Mehta determined that the CVRA did not
apply to the MPD because it was not an “agency of the
United States.” Varcov. Newsham, No. 2019-0004, Mem.
Op. & J. (D.D.C. Mar. 29,2019). When Plaintiff petitioned
for a writ of mandamus, a D.C. Circuit panel dismissed
the case for lack of jurisdiction, holding that because “no
prosecution is underway and the only potential charge is
for a D.C. Code offense,” Plaintiff “must assert his rights,
if any, that arise under the Crime Victims’ Rights Act
...in Superior Court for the District of Columbia.” In re
Varco, 2019 U.S. App. LEXIS 21654 (D.C. Cir. July 19,
2019) (per curiam). Plaintiff subsequently filed this action.

5a
Appendix B
While the meaning of the term is somewhat
ambiguous, the Court ultimately agrees with Defendant
and Judge Mehta that the MPD cannot be construed as
an “agency of the United States” under the CVRA. 18
U.S.C. §3771(c)(l) states, in relevant part, that “[o]fficers
and employees of the Department of Justice and other
departments and agencies of the United States engaged
in the detection, investigation, or prosecution of crime
shall make their best efforts to see that crime victims
are notified of, and accorded, the rights” accorded by
the CVRA (emphasis added). “Agency” is defined in this
section of the U.S. Code as “any department, independent
establishment, commission, administration, authority,
board or bureau of the United States or any corporation
in which the United States has a proprietary interest,
unless the context shows that such term was intended to
be used in a more limited sense.” 18 U.S.C. §6.
While no court has determined whether 18 U.S.C.
§3771(c)(l) applies to the MPD, federal district courts
have found that identical language in other statutes
does not apply to agencies, such as the MPD, that
operate under the authority of the District of Columbia
government. In District of Columbia v. Owens-Coming
Fiberglas Corp., 604 F. Supp. 1459 (D.D.C. 1985), the
court determined that District of Columbia was not an
agency of the United States pursuant to the federal court
jurisdiction statute. Interpreting language identical to 18
U.S.C. §6, the court noted that the District government
“functions as an independent municipal corporation with
broad legislative powers over local matters.” Id. at 1462.
While the District performs function “of a governmental

6a
Appendix B
nature...they serve a primarily local proprietary interest
rather than a federal or national proprietary interest.” Id.
The Court further noted that when Congress exercised
its constitutional powers to delegate legislative powers to
the District of Columbia government, it did “so not with
any federal interest in mind but instead while acting in its
role as a local legislator.” Id. (citing District of Columbia
v. Thompson, 346 U.S. 100, 104-07 (1953)). Accordingly,
the court reasoned that the District of Columbia was not
an agency of the United States because its purpose was
entirely local rather than national in scope. Id.; see also
Tyler v. Wash., D.C. Corn, 2015 U.S. Dist. LEXIS 108480
at *1 n.l (D. Md. Aug. 17, 2015) (similarly reasoning that
the District of Columbia Department of Corrections was
not an agency of the United States).
Additional support comes from the Supreme Court’s
treatment of the Appointments Clause of the U.S.
Constitution, which applies to “Officers of the United
States.” U.S. Const, art. II, §2, cl. 2. Just this year, the
Court reiterated that the term “of the United States”
“suggests a distinction between federal officers—officers
exercising power of the National Government—and
nonfederal officers—officers exercising power of some
other government.” Fin. Oversight & Mgmt. Bdfor P.R.
v. Aurelius Inv., LLC, 140 S. Ct. 1649, 1658 (2020). The
District of Columbia government and those of territories
such as Puerto Rico, “staffed by local officials, who
themselves have made and enforced local law,” are
exercising, the Court concluded, “power of the local
government, not the Federal Government.” Id. at 1659.
That Congress created those governments does not,
under “[longstandingpractice[,]... automatically make [an

7a
Appendix B
officer of those governments] an ‘Officer of the United
States.”’ Id. Accordingly, the Court reiterated that “local
officers that Congress vests with primarily local duties”
are not “Officers of the United States.” Id. at 1661.
The same reasoning applies to this case. The MPD’s
jurisdiction is entirely local. D.C. Code §5-101.02. The
Chief of Police is appointed by a local official—the
Mayor—with the advice and consent of other local
officials—the D.C. Council. D.C. Code §5-105.01(a-l)(l).
The MPD primarily enforces local laws, which include
the offense that Plaintiff is alleging harmed him. See
D.C. Code §22-404. These considerations all point to the
conclusion that the MPD is not an “agency of the United
States” under the CYRA.
Plaintiff’s countervailing arguments are not
convincing. He argues that crime victims’ rights are
a federal interest, as evidenced by the CVRA. While
that may be true, it does not change the fact that the
MPD primarily serves local interests. He also points to
statutory language/recently in the news, that allows the
President to take control of the MPD during emergency
situations. See D.C. Code 1-207.40. But such presidential
intervention is extremely rare; direct control of the
MPD rests almost entirely with the Mayor and the D.C.
Council.1
1. In his Motion for Leave to File Notice of Supplemental
Authority, Plaintiff cites dicta in Metro. RR Co. v. District of
Columbia, 132 U.S. 1 (1889) stating that unlike a state, the District
of Columbia is not a separate sovereign entity and instead is fully
controlled by the U.S. government. Id. at 8-9. However, this case

8a
Appendix B
Similarly, the text and legislative history of the
CVRA do not support Plaintiffs interpretation. While
18 U.S.C. §3771(b)(2) does include the more limited
definition of “agency of the Executive Branch of the
Federal Government,” it is in the context of rules for
“Federal habeas corpus proceedings arising out of
a State conviction.” As such, because this narrower
definition applies to a specific context with both state and
federal components, it does not connote a more expansive
definition for “agency of the United States” in 18 U.S.C.
§3771(0X1),
Further, while it is true that the CVRA applies to
criminal cases brought in D.C. Superior Court, as well
as to crime victims who are “directly and proximately
harmed as a result of...an offense in the District of
Columbia,” see 18 U.S.C. §3771(e), it does not follow that
CVRA obligations flow directly to local agencies such as
the MPD.2 As for Plaintiff’s citations to legislative history,
they provide no support for applying the CVRA to local
agencies with local duties.
dealt with a distinct issue—the capacity of the District of Columbia
to sue—and was not meant to suggest that “Congress lacks the
authority under the Constitution to delegate the powers of home
rule to the DistrictDistrict ofColumbiav. JohnR. ThompsonCo.,
346 U.S. 100, 107 (1953). Accordingly, the dicta cited by Plaintiff is
not relevant to the issues in this case.
2. In contrast, the U.S. Attorney’s Office for the District of
Columbia, which prosecutes the vast majority of D.C. criminal
offenses, clearly has CVRA obligations as a division of the U.S.
Department of Justice.

9a
Appendix B
For these reasons, the Court finds that the MPD is
not covered by the CVRA and denies Plaintiff’s motion.
Because the Court lacks subject matter jurisdiction, it
dismisses the case and denies all other pending motions
as moot. See D.C. Super. Ct. Civ. R. 12(h)(3) (“If the
court determines at any time that it lacks subject-matter
jurisdiction, the court must dismiss the action.”).
Accordingly, it is this 23rd day of September, 2020,
hereby
ORDERED that Plaintiffs Motion to Enforce Crime
Victim’s Rights is DENIED; and it is further
ORDERED that Plaintiff’s Motion for Preliminary
Injunction is DENIED AS MOOT; and it is further
ORDERED that Plaintiff’s Motion to Supplement
the Record and Request for In-Camera Review of MPD
Video Evidence is DENIED AS MOOT; and it is further
ORDERED that Plaintiff’s Motion for Leave to File
a Notice of Supplemental Authority is DENIED AS
MOOT; and it is further
ORDERED that Plaintiff’s Motion for Leave to
Appear Telephonically or Via Video Conference is
DENIED AS MOOT; and it is further
ORDERED that Plaintiff’s Motion for Leave to
Supplement the Record with Notice of Relevant Statute
is DENIED AS MOOT; and it is further

10a
Appendix B
ORDERED that the initial scheduling conference
scheduled for September 25,2020 is VACATED and this
case is DISMISSED.

sL
Kelly A. Higashi
Associate Judge
(Signed in Chambers)

COPIES TO:
Michael Varco
Michael K. Addo
Benjamin E. Bryant
Via CaseFileXpress

11a
APPENDIX C — DENIAL OF REHEARINGS
OF THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT,
FILED SEPTEMBER 26, 2019
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-3046
September Term, 2019
1:19-mc-00004-APM
IN RE: MICHAEL VARCO,
Petitioner.
Filed On: September 26, 2019
BEFORE: Garland, Chief Judge, and Henderson,
Rogers, Tatel, Griffith, Srinivasan, Millett,
Pillard, Wilkins, Katsas, and Rao, Circuit
Judges
ORDER
Upon consideration of the petition for rehearing en
banc, and the absence of a request by any member of the
court for a vote, it is
ORDERED that the petition be denied.

12a
Appendix C
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY

ZsZ.
Michael C. McGrail
Deputy Clerk

13a
Appendix C
BEFORE: Millett, Pillard, and Wilkins, Circuit Judges
ORDER
Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

M
Michael C. McGrail
Deputy Clerk

14a
APPENDIX D — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT,
DATED JULY 19, 2019
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-3046
September Term, 2018
l:19-mc-00004-APM
Filed On: July 19,2019
IN RE: MICHAEL VARCO,
Petitioner.
BEFORE: Millett, Pillard, and Wilkins, Circuit
Judges
ORDER
Upon consideration of the petition for writ of
mandamus, the opposition thereto, which includes a motion
to dismiss, and the reply, it is
ORDERED that the motion to dismiss the petition
be granted. Under the facts presented here, where no
prosecution is underway and the only potential charge
is for a D.C. Code offense, the victim must assert his
rights, if any, that arise under the Crime Victims’ Rights

15a
Appendix D
Act, 18 U.S.C. § 3771, in Superior Court for the District
of Columbia. As a result, the proper court of appeals to
review a petition for writ of mandamus is the District of
Columbia Court of Appeals. See 18 U.S.C. § 3771(e)(1)(B).
Pursuant to D.C. Circuit Rule 36, this disposition will
not be published.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

M
Daniel J. Reidy
Deputy Clerk

16a
APPENDIX E — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT
OF COLUMBIA, DATED MARCH 29, 2019
. UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
MICHAEL VARCO,
Plaintiff,
v.
PETER NEWSHAM,
Defendant.
Case No. 19-mc-00004 (APM)
UNDER SEAL
MEMORANDUM OPINION
Plaintiff Michael Varco, the victim of an aggravated
assault that took place in the District of Columbia, moves
this court to enforce the federal Crime Victims’ Rights
Act (“CVRA”), 18 U.S.C. § 3771, against Peter Newsham,
the Chief of Police of the Metropolitan Police Department
of the District of Columbia (“MPD”). Plaintiff seeks to
compel Chief Newsham “to protect [Plaintiffs] personal
information better, handle [his] case more fairly, and
provide [him] images of the people who attacked [him.]”
See Pl.’s Mot., ECF No. 3, at 1.

17a
Appendix E
This matter must be dismissed because, on its face,
the CVRA does not apply to local law enforcement
authorities, like the MPD, or to local law enforcement
officials, like ChiefNewsham. The statute requires
“[o]fficers and employees of the Department of Justice
and other departments and agencies of the United States
engaged in the detection, investigation, or prosecution of
crime” to “make their best efforts” to accord crime victims
certain rights enumerated by the Act. 18 U.S.C. § 3771(c)
(1). The MPD is not a department or agency of the United
States, and the Chief ofMPD is not an officer or employee
of the Department of Justice or any other federal law
enforcement agency. Accordingly, the CVRA, by its very
terms, does not reach the MPD or Chief Newsham.
To avoid this conclusion, Plaintiff points to various
provisions of the CVRA that reference enforcement of
the District of Columbia criminal code. For instance,
Plaintiff notes that the CVRA defines a “crime victim”
as “a person ... harmed as a result of the commission
of... an offense in the District of Columbia.” See PL’s
Reply Mem., ECF No. 6, at 4 (citing 18 U.S.C. § 3771(e)(2)).
Relatedly, the statute defines “district court” to include
“the Superior Court of the District of Columbia,” 18
U.S.C. § 3771(e)(3), and “court of appeals” to include “the
District of Columbia Court of Appeals,” § 3771(e)(1)(B).
Although these provisions make plain that the CVRA
reaches victims of D.C. Code offenders, it does not follow
that the statute provides any cause of action against the
MPD. Instead, the provisions upon which Plaintiff relies
are directed to ensuring that the U.S. Attorney’s Office
for the District of Columbia—which prosecutes federal

18a
Appendix E
offenses and D.C. Code offenses—accords victims the
Act’s enumerated rights in its prosecutions. Nothing in the
CVRA extends its coverage to the District of Columbia’s
municipal law enforcement agency.
For the foregoing reasons, Plaintiff’s Motion to
Enforce the CVRA is denied. A separate final, appealable
order accompanies this Memorandum Opinion.
Dated: March 29, 2019
/s/
Amit P. Mehta
United States District Judge

19a
APPENDIX F — RELEVANT STATUTORY
PROVISIONS
18 U.S.C. § 5. United States defined
The term “United States”, as used in this title
in a territorial sense, includes all places and waters,
continental or insular, subject to the jurisdiction of the
United States, except the Canal Zone.

xJ

20a
Appendix F
18 U.S.C. § 6. Department and agency defined
As used in this title:
The term “department” means one of the executive
departments enumerated in section 1 of Title 5, unless the
context shows that such term was intended to describe
the executive, legislative, or judicial branches of the
government.
The term “agency” includes any department,
independent establishment, commission, administration,
authority, board or bureau of the United States or any
corporation in which the United States has a proprietary
interest, unless the context shows that such term was
~ intended to be used in a more limited sense.

21a

.

Appendix F
18 U.S.C. § 3771. Crime victims’ rights
(a) Rights Of Crime Victims.—A crime victim has the
following rights:
(1) The right to be reasonably protected from the
accused.
(2) The right to reasonable, accurate, and timely
notice of any public court proceeding, or any parole
proceeding, involving the crime or of any release or
escape of the accused.
(3) The right not to be excluded from any such
public court proceeding, unless the court, after
receiving clear and convincing evidence, determines
that testimony by the victim would be materially
altered if the victim heard other testimony at that
proceeding.
(4) The right to be reasonably heard at any public
proceeding in the district court involving release,
plea, sentencing, or any parole proceeding.
(5) The reasonable right to confer with the
attorney for the Government in the Case.
(6) The right to full and timely restitution as
provided in law.
(7) The right to proceedings free from
unreasonable delay.

22a
Appendix F
(8) The right to be treated with fairness and with
respect for the victim’s dignity and privacy.
(9) The right to be informed in a timely manner of
any plea bargain or deferred prosecution agreement.
(10) The right to be informed of the rights under
this section and the services described in section
503(c) of the Victims’ Rights and Restitution Act
of 1990 (42 U.S.C. 10607(c)) and provided contact
information for the Office of the Victims’ Rights
Ombudsman of the Department of Justice.
(b) Rights Afforded. —
(1) In general.—In any court proceeding in
volving an offense against a crime victim, the court
shall ensure that the crime victim is afforded the
rights described in subsection (a). Before making
a determination described in subsection (a)(3), the
court shall make every effort to permit the fullest
attendance possible by the victim and shall consider
reasonable alternatives to the exclusion of the victim
from the criminal proceeding. The reasons for any
decision denying relief under this chapter shall be
clearly stated on the record.
(2) Habeas corpus proceedings.—
(A) In general.—In a Federal habeas corpus
proceeding arising out of a State conviction, the
court shall ensure that a crime victim is afforded

23a
Appendix F
the rights described in paragraphs (3), (4), (7),
and (8) of subsection (a).
(B) Enforcement.—
(i) In general.—These rights may be
enforced by the crime victim or the crime
victim’s lawful representative in the manner
described in paragraphs (1) and (3) of
subsection (d).
(ii) Multiple victims.—In a case involving
multiple victims, subsection (d)(2) shall also
apply.
(C) Limitation.—This paragraph relates
to the duties of a court in relation to the rights
of a crime victim in Federal habeas corpus
proceedings arising out of a State conviction,
and does not give rise to any obligation or
requirement applicable to personnel of any
agency of the Executive Branch of the Federal
Government.
(D) Definition.—For purposes of this
paragraph, the term “crime victim” means
the person against whom the State offense
is committed or, if that person is killed or
incapacitated, that person’s family member or
other lawful representative.

24a
Appendix F
(c) Best Efforts To Accord Rights.—
(1) Government.—Officers and employees of
the Department of Justice and other departments
and agencies of the United States engaged in the
detection, investigation, or prosecution of crime shall
make their best efforts to see that crime victims are
notified of, and accorded, the rights described in
subsection (a).
(2) Advice of attorney.—The prosecutor shall
advise the crime victim that the crime victim can seek
the advice of an attorney with respect to the rights
described in subsection (a).
(3) Notice.—Notice of release otherwise required
pursuant to this chapter shall not be given if such
notice may endanger the safety of any person.
(d) Enforcement and Limitations.—
(1) Rights.—The crime victim or the crime
victim’s lawful representative, and the attorney for
the Government may assert the rights described in
subsection (a). A person accused of the crime may not
obtain any form of relief under this chapter.
(2) Multiple crime victims.—In a case where the
court finds that the number of crime victims makes
it impracticable to accord all of the crime victims
the rights described in subsection (a), the court shall
fashion a reasonable procedure to give effect to this

25a
Appendix F
chapter that does not unduly complicate or prolong
the proceedings.
(3) Motion

for relief and writ of mandamus.—

The rights described in subsection (a) shall be
asserted in the district court in which a defendant is
being prosecuted for the crime or, if no prosecution is
underway, in the district court in the district in which
the crime occurred. The district court shall take
up and decide any motion asserting a victim’s right
forthwith. If the district court denies the relief sought,
the movant may petition the court of appeals for a
writ of mandamus. The court of appeals may issue the
writ on the order of a single judge pursuant to circuit
rule or the Federal Rules of Appellate Procedure.
The court of appeals shall take up and decide such
application forthwith within 72 hours after the petition
has been filed, unless the litigants, with the approval
of the court, have stipulated to a different time period
for consideration. In deciding such application, the
court of appeals shall apply ordinary standards of
appellate review. In no event shall proceedings be
stayed or subject to a continuance of more than five
days for purposes of enforcing this chapter. If the
court of appeals denies the relief sought, the reasons
for the denial shall be clearly stated on the record in
a written opinion.
(4) Error.—In any appeal in a criminal case, the
Government may assert as error the district court’s
denial of any crime victim’s right in the proceeding
to which the appeal relates.

26a
Appendix F
(5) Limitation on relief.—In no case shall a
failure to afford a right under this chapter provide
grounds for a new trial. A victim may make a motion
to re-open a plea or sentence only if—
(A) the victim has asserted the right to be
heard before or during the proceeding at issue
and such right was denied;
(B) the victim petitions the court of appeals
for a writ of mandamus within 14 days; and
(C) in the case of a plea, the accused has not
pled to the highest offense charged.
This paragraph does not affect the victim’s right to
restitution as provided in title 18, United States Code.
(6) No cause of action.—Nothing in this chapter
shall be construed to authorize a cause of action for
damages or to create, to enlarge, or to imply any
duty or obligation to any victim or other person for
the breach of which the United States or any of its
officers or employees could be held liable in damages.
Nothing in this chapter shall be construed to impair
the prosecutorial discretion of the Attorney General
or any officer under his direction.
(e) Definitions.—For the purposes of this chapter:
(1) Court of appeals.—The term “court of
appeals” means—

27a
Appendix F
(A) the United States court of appeals for
the judicial district in which a defendant is being
prosecuted; or
(B) for a prosecution in the Superior Court of
the District of Columbia, the District of Columbia
Court of Appeals.
(2) Crime victim.—
(A) In general.—The term “crime victim”
means a person directly and proximately harmed
as a result of the commission of a Federal offense
or an offense in the District of Columbia.
(B) Minors and certain other victims.—In
the case of a crime victim who is under 18 years
of age, incompetent, incapacitated, or deceased,
the legal guardians of the crime victim or the
representatives of the crime victim’s estate,
family members, or any other persons appointed
as suitable by the court, may assume the crime
victim’s rights under this chapter, but in no event
shall the defendant be named as such guardian
or representative.
(3) District court; court.—The terms “district
court” and “court” include the Superior Court of the
District of Columbia.

28a
Appendix F
(f) Procedures To Promote Compliance.—
(1) Regulations.—Not later than 1 year after
the date of enactment of this chapter, the Attorney
General of the United States shall promulgate
regulations to enforce the rights of crime victims and
to ensure compliance by responsible officials with the
obligations described in law respecting crime victims.
(2) Contents.—The regulations promulgated
under paragraph (1) shall—
(A) designate an administrative authority
within the Department of Justice to receive and
investigate complaints relating to the provision
or violation of the rights of a crime victim;
(B) require a course of training for employees
and offices of the Department of Justice that
fail to comply with provisions of Federal law
pertaining to the treatment of crime victims,
and otherwise assist such employees and offices
in responding more effectively to the needs of
crime victims;
(C) contain disciplinary sanctions, including
suspension or termination from employment,
for employees of the Department of Justice
who willfully or wantonly fail to comply with
provisions of Federal law pertaining to the
treatment of crime victims; and

29a
Appendix F
(D) provide that the Attorney General, or
the designee of the Attorney General, shall be
the final arbiter of the complaint, and that there
shall be no judicial review of the final decision of
the Attorney General by a complainant.

30a
Appendix F
D.C. Law § 23-1901. Crime victims’ bill of rights.
(a) Officers or employees of the District of Columbia
engaged in the detection, investigation, or prosecution
of crime or the judicial process shall make their best
efforts to see that victims of crime are accorded the rights
described in subsection (b) of this section.
(b) A crime victim has the right to:
(1) Be treated with fairness and with respect for the
victim’s dignity and privacy;
(2) Be reasonably protected from the accused offender;
(3) Be notified of court proceedings;
(4) Be present at all court proceedings related to the
offense, including the sentencing, and release, parole,
record-sealing, and post-conviction hearings, unless the
court determines that testimony by the victim would be
materially affected if the victim heard other testimony or
where the needs of justice otherwise require;
(5) Confer with an attorney for the prosecution in the
case which does not include the authority to direct the
prosecution of the case;
(6) An order of restitution from the person convicted of the
criminal conduct that caused the victim’s loss or injury;
(7) Information about the conviction, sentencing,
imprisonment, detention, and release of the offender,

31a
Appendix F
and about any court order to seal the offender’s criminal
records;
(8) Notice of the rights provided in this chapter and under
the laws of the District of Columbia; and
(9) Be notified of any available victim advocate or
other appropriate person to develop a safety plan and
appropriate services.
(c) This section does not create a cause of action or defense
in favor of any person arising out of the failure to accord
to a victim the rights enumerated in subsection (b) of this
section.

